                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 1-13030023                                                                    Page 1 of 1



                 We received information from Division of Grants and Agreements (DGA) that during
         new award review, a grantee 1 institution notified NSF that a previous employee was under
         investigation for fraud. The employee was terminated in 2010 and internal controls have been
         put in place. DGA was unsure if NSF funds were at risk.

                 Review of the grantee funding history found only one active grane during that time
         period. The grant was awarded in 2007 and closed in 2013. All funds were awarded for
         Participant Support and instructional cost.

                  A PI on the award said that the NSF award was not affected by the internal theft and that
         all participant support was appropriately paid. The President of the institution stated that an
         Administrative Assistant to the Financial Office wrote checks to herself off the general account
         and no restricted funds were involved. The Admin Assistant also reconciled bank statements and
         hid the checks. The Admin Assistant was fired and is pending prosecution by the local
         authorities. The institution has instituted new internal controls and no NSF funds were at risk by
         this embezzlement.

                   The case will be closed.




         2




NSF OIG Form 2 (11102)
